           REVIEW OF THE
      IMPLEMENTATION OF GSA’S
IT INFRASTRUCTURE SUPPORT SERVICES
      CONSOLIDATION INITIATIVE
   REPORT NUMBER A070113/O/T/F09007

            June 18, 2009
                u.s. GENERAL SERVICES ADMINISTRATION
                Office of Inspector General



Date:	         June 18,2009

Reply to       Gwendolyn A. McGowan
Attn of:       Deputy Assistant Inspector General for Infonnation Technology Audits
               (JA-T)

To:	           Casey Coleman
               Chief Information Officer (I)

Subject:	      Review of the Implementation of GSA's IT Infrastructure Support Services
               Consolidation Initiative
               Report Number A070 l13/0/T/F09007

This report presents a summary of the results of our audit of the General Services
Administration's (GSA) Infrastructure Technology Global Operations (GITGO) consolidation
initiative. The report highlights our audit findings and recommendations to the Agency's Office
of the Chief Information Officer (OCIO) for improving the security, service, and cost validation
of the consolidated infrastructure support services. With the GITGO initiative, the GSA OCIO is
moving the Agency toward a standard, enterprise-wide resource management framework to
establish and sustain effective and efficient infonnation technology (IT) infrastructure support
services. Accordingly, our review focused on risk areas where additional management attention
may be needed to ensure that lessons learned with GITGO are adequately addressed to support
GSA's infonnation technology project management goals. We coordinated closely throughout
the audit with program officials responsible for the GITGO implementation and carefully
considered controls for managing security, service, and costs associated with the infrastructure
support services.      On March 30, 2009, we provided our preliminary findings and
recommendations in a presentation to you and your staff. We have incorporated infonnation that
you provided and a copy of our updated briefing slides is contained in Appendix A. Due to the
sensitive nature of the detailed findings in the appendix, we are restricting distribution of that
infonnation to your office.

Background

The GITGO perfonnance-based task order was awarded to Catapult Technology, Ltd. on
February 28, 2007 for the purpose of consolidating GSA's IT infrastructure support services.
With GITGO, 40 existing contracts with approximately $59 million in annual infrastructure
support costs were consolidated into a single contract valued at approximately $40 million
annually. Program management, IT Service Desk/Help Desk, and local support services sub­
tasks are firm fixed-priced, and client management services and network operations sub-tasks are
labor-hour contract line items. The GITGO initiative is part of GSA's Exhibit 300 capital asset
plan and business case for enterprise infrastructure. The Exhibit 300 is required to coordinate
Office of Management and Budget's (OMB) collection of agency infonnation to ensure the


                     241 18th Street 5., CS4, Suite 607, Arlington, VA 22202-3402

                           Federal Recycling Program   -0   Printed on Recycled Paper
business case for investments are made and tied to the Agency’s mission statements, long-term
goals and objectives, and annual performance plans. GSA’s phased implementation of GITGO
services started with the contract award 12-month base period and continues with four 12-month
option periods to consolidate the IT infrastructure support services. Expected benefits from the
GITGO initiative to consolidate GSA’s internal contracts for desktop computing, networking,
messaging and other services were: (1) combining 40 disparate contracts into one consolidated
contract; (2) enhancing efficiency by aligning functions performed by multiple organizations and
locations; (3) establishing consistent IT infrastructure levels of service throughout GSA; (4)
establishing a consolidated help desk for all IT infrastructure issues; (5) improving management
controls over funding for IT infrastructure, as funding will be consistently documented and
analyzed; and (6) simplifying enterprise efforts such as implementing new software versions,
responding to various security issues, and maintaining asset inventories.

Objective, Scope, and Methodology

Our audit objective was to assess whether risks with GSA’s consolidation of IT support services
have been adequately mitigated by determining if: (1) the GSA Infrastructure Technology
Global Operations (GITGO) initiative for IT infrastructure support consolidation is generating
expected cost savings and other benefits; (2) GSA’s consolidated IT Service Desk is operating
effectively, efficiently, and securely; and (3) GSA and the GITGO contractor are developing and
implementing Information Technology Infrastructure Library (ITIL) processes to align IT
support services to customer needs. If not, what changes are needed to ensure successful
implementation of the GITGO initiative?

We gathered and analyzed information related to security, IT Service Desk operations, and
infrastructure support services costs, which included the GITGO performance work statement
(PWS), deployment of the ITIL framework, funding and justifications, strategic goals and
objectives, standard operating procedures, performance measures, and service level agreements
(SLA).

We met with GITGO officials and customers from the Federal Acquisition Service (FAS), Public
Buildings Service, and Office of Governmentwide Policy. We also met with GITGO contractor
personnel and FAS officials responsible for the Information Technology Infrastructure Line of
Business. We visited the GITGO IT Service Desk in Chambersburg, PA for an overview of
operations. For our IT security assessment, we relied on commercial tools and agreed-upon-
procedures in place with the GSA Chief Information Officer (CIO) to evaluate operations at the
Unicenter Service Desk in St. Louis, MO. In January 2009, we also reviewed a limited sample
of service desk tickets that included active tickets, tickets referred by FAS personnel, and tickets
associated with malicious code.

We considered applicable statutes, regulations, policies, operating procedures, and industry best
practices regarding the development and implementation of the GITGO infrastructure
consolidation such as: the PWS for the General Services Administration Office of the Chief
Information Officer (OCIO) GSA Infrastructure Technology Global Operations, awarded
February 2007, Task Identification Number A06S47T0040; GSA Information Technology (IT)
Security Policy, CIO P 2100.1D, June 2007; National Institute of Standards and Technology



                                                 2
(NIST) Special Publication (SP) 800-61, Revision 1, Computer Security Incident Handling
Guide, March 2008; GSA Information Technology (IT) Capital Planning and Investment
Control, CIO 2135.2A, September 2006; GSA Information Technology (IT) Capital Planning
and Investment Control, CIO 2135.2B, November 2008; GSA Information Technology (IT)
Governance, CIO 2130.1, November 2008; Gartner Toolkit: IT Service Desks Must Understand
the Importance of First Contact Resolution, June 2007; OMB M-05-23 – Improving Information
Technology (IT) Project Planning and Execution, August 2005; OMB M-05-04 – Policies for
Federal Agency Public Websites, December 2004; ITIL Service Support Version 2.6, 2000; ITIL
Service Delivery Version 2.4, 2001; GSA IT Strategic Plan 2009 - 2011, August 2007; The
Clinger Cohen Act of 1996; and OMB A-94 – Guidelines and Discount Rates for Benefit-Cost
Analysis of Federal Programs, October 1992.

This audit work began in February 2007 and was completed by February 2009. We conducted
our audit work in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.

Results in Brief

The expected benefits for implementing GITGO include the establishment of consistent IT
infrastructure levels of service throughout GSA, a consolidated service desk/helpdesk for all IT
infrastructure issues, and improvement of management controls for funding IT infrastructure.
Our review identified findings related to security, service, and cost validation risks that could
hinder long-term success for GITGO if not adequately addressed. We have identified security
controls that need to be strengthened in the areas of web application, database, and operating
system platform security in response to results of technical scanning and other testing.
Specifically, important risk management activities for the Unicenter Service Desk infrastructure,
including certification and accreditation, the assignment of an Information System Security
Officer (ISSO), and completion of an IT contingency plan should be prioritized. We also found
that comprehensive procedures are not yet in place for service desk handling of security
incidents, and audit trails for the remote support solution used by the IT Service Desk are not
being analyzed for suspicious activity. An official GSA governance body should be utilized to
review and approve changes to service level agreements as needed to monitor the performance of
the infrastructure support processes. The IT Infrastructure Library (ITIL) is the selected IT
service management framework for GITGO. However, a GITGO-specific ITIL plan, with
milestones, is needed for guiding the development and implementation of ITIL disciplines for
improving GSA’s IT infrastructure services. Enhanced procedures are needed for the
consolidated IT Service Desk to improve day-to-day operations. Since procedures were not
adequate for verifying the pre-consolidation cost baseline information, the OCIO should improve
the cost validation process to ensure the accuracy of future cost baselines for monitoring
infrastructure support services. Taking steps to ensure improvements with GITGO at this time
will assist GSA in progressing toward more standardized processes, reliable infrastructure
support services, and efficiencies in GSA operations. To address the identified risk areas, we




                                                3
have made specific recommendations for improving security, service, and cost validation for the
GITGO initiative.

Summary of Audit Findings

Completion of Important Risk Management Activities Could Provide Assurance of Required
Security Controls
Some technical control testing has been performed by system security officials at the Unicenter
Service Desk (USD); however, the USD infrastructure 1 is operating without assurance of key
risk management activities such as the completion of a certification and accreditation (C&A) of
system security controls, the assignment of an Information System Security Officer, and the
development of an IT contingency plan. Steps taken with GITGO to manage key C&A activities
for the USD infrastructure have not been sufficient to manage specific risks. GSA’s IT Security
Policy establishes requirements for system authorization, system roles and responsibilities, and
IT contingency planning. Without the completion of these key risk management activities,
system security officials may not be able to determine the extent to which the controls are
implemented correctly, operating as intended, and producing the desired outcome with respect to
meeting the security requirements for the USD infrastructure.

Vulnerabilities Identified Could Be Mitigated Through More Secure Configurations for Portions
of the IT Service Desk Infrastructure
Our tests found specific instances of vulnerabilities that could be mitigated through more secure
configurations for the USD infrastructure. GSA’s IT Security Policy establishes detailed
requirements for ensuring adequate protection of GSA IT resources. However, hardening
practices for the IT Service Desk were not adequate to comprehensively address risks in web
applications, databases, and operating systems. Additionally, key IT security requirements were
not addressed in the performance measures included in the Performance Work Statement. These
vulnerabilities could expose the USD infrastructure to undue risks affecting the confidentiality,
integrity, or availability of the IT Service Desk. The details of these vulnerabilities are security
sensitive and have been provided in Appendix A.

Additional Guidance Could Better Equip the IT Service Desk with IT Security Incident Handling
Responsibilities
We identified weaknesses with security incident handling for the IT Service Desk in the areas of
incident reporting and incident mitigation. These weaknesses had two contributing causes. First,
comprehensive procedures are not yet in place to guide service desk handling of security
incidents. Second, GITGO security officials determined that service desk personnel were not
assigned significant security responsibilities and, therefore, were not required to complete role-
based training provided under GSA’s IT Security Program. While all service desk personnel
must complete GSA’s IT Security Awareness training to maintain their GSA email accounts, this
basic training does not address all security incident handling responsibilities for service desk
personnel. The GSA-CIO has issued a procedural guide that documents the required incident
handling process for all users of GSA IT resources, including contractor personnel who have


  1
      For the purpose of this report, the USD infrastructure refers to the servers and applications supporting the IT
      Service Desk in St. Louis, MO.



                                                           4
access to GSA resources, or otherwise provide services to GSA that handle or process GSA data.
Without a comprehensive incident handling capability, GSA may not be able to effectively
mitigate the exploited weaknesses. The details of these weaknesses are sensitive in nature and
are included in Appendix A.

Monitoring Audit Trails for the Remote Access Solution Could Assist in Detecting and Deterring
Potential Unauthorized Activity
Audit trails for the remote support solution used by the IT Service Desk personnel were not
analyzed for suspicious activity. GSA’s IT Security Policy states that audit records must be
reviewed frequently for signs of unauthorized activity and other security events. This is an
important security control since audit trails are used to deter and detect unauthorized access to
computer systems and to help reveal potential misuse. However, system officials stated that they
were uncertain regarding which activities should be analyzed in the available audit trails. By not
analyzing audit trails, unauthorized activity or other potential security breaches may not be
avoided or detected.

Senior Management Review and Approval Could Improve Service Level Agreements
Under GITGO, service level agreements (SLA) are used for incentivizing certain metrics,
including the performance of the IT Service Desk. SLAs document the boundaries and service
level goals of the agreed-upon services that will be provided to a specific customer, and sets
forth specific penalties if the service provider fails to provide the agreed-upon services or to meet
the agreed-upon goals. The SLAs for GITGO were revised to modify the definition of First
Contact Resolution to count tickets that have been dispatched correctly as resolved. According
to Gartner 2 , First Contact Resolution is “the most fundamental of all metrics.” While a GSA
governance body had a charter to review SLAs, the revised SLAs were negotiated but not
formally approved. Further, the Information Technology Infrastructure Library (ITIL)
recommends the following for service level agreements: “Generally speaking, the more senior
the signatories are within their respective organizations, the stronger the message of
commitment.” Without senior management approval, SLAs may not be incentivizing the most
effective metrics for GITGO operations. Senior management, including stakeholders from
GSA’s Services, Staff Offices, and Regions may not be held accountable for the selection of
metrics for IT service support needs under GITGO.

Establishment of Milestones and Implementation Plan Needed to Realize Benefits from Selected
IT Service Management Processes
The GITGO Performance Work Statement (PWS) states that GSA will adopt the following ITIL
processes at a minimum: (1) Problem Management, (2) Incident Management, (3) Change
Management, (4) Release Management and (5) Configuration Management. We discussed these
processes with the OCIO and documentation was provided on the status of ITIL for GITGO.
However, this documentation does not include milestones to develop and guide the
implementation of selected ITIL processes. Our analysis identified that the reason milestones
have not yet been developed was that the PWS did not include milestones for oversight for the
phased implementation of ITIL. New major IT projects in the Federal government are required
to establish baselines with clear schedule and performance goals. Without a detailed


  2
      Gartner Toolkit: IT Service Desks Must Understand the Importance of First Contact Resolution, June 2007.



                                                         5
implementation plan that considers such project management requirements, GSA may not be
able to adequately address risks for GITGO ITIL implementation or meet important goals for
standardized processes and reliable infrastructure, as outlined in the GSA IT Strategic Plan.

More Consistent Response to Tickets Could Be Achieved Through Standard Procedures to Guide
the IT Service Desk Operations
Trouble tickets are used by IT organizations to track the detection, reporting, and resolution of
problems reported by its customers. The GITGO IT Service Desk receives an average of 18,300
trouble tickets per month. We reviewed a sample of 75 tickets that included: 46 active tickets, 4
tickets referred by Federal Acquisition Service personnel, and 25 tickets associated with
malicious code. Our analysis identified inconsistencies in IT Service Desk ticket handling,
which may lead to inefficiencies. Specifically, service desk personnel did not consistently
identify related tickets, set ticket categories, or classify tickets as an issue or change order.
Further, we identified tickets that were not resolved in a timely manner. These inconsistencies
were due to incorrect routing of tickets or procedures that were not comprehensive. A
performance objective stated in the PWS for the IT Service Desk is to deploy a consolidated,
enterprise help desk resulting in a reliable delivery of service. In addition, the PWS states that a
goal for the GITGO initiative is to develop and deploy agency approved standard processes.
Inconsistent handling of incidents by the IT Service Desk could lead to difficulty in analyzing
the effectiveness of IT Service Desk operations and may impact ability of the IT Service Desk to
consistently resolve trouble tickets in a timely manner.

Enhancing the Process for Verifying Cost Baselines Associated with Infrastructure Support
Services Could Improve Management Planning Decisions
The GSA-CIO has consolidated forty contracts with annual infrastructure support costs of
approximately $59 million into a single contract at approximately $40 million annually with
GITGO. Agency officials did not verify the accuracy of the pre-consolidation cost baseline and
did not conduct an independent validation for the baseline. This was due to OCIO procedures
that were not adequate for verifying the pre-consolidation cost baseline information. New major
IT projects in the Federal government are required to ensure that cost, schedule, and performance
goals are independently validated for reasonableness. Reasonable baselines should be accurate,
relevant, timely, and complete. Additionally, OMB Circular A-94 stipulates that analyses should
be explicit about the underlying assumptions used to arrive at estimates of future benefits and
costs. These analyses should include a statement of the assumptions, the rationale behind them,
and a review of their strengths and weaknesses. Redundant services may be in place because all
services under the pre-existing contracts were not verified for the pre-consolidation baseline. In
addition, scope creep could occur if the baseline does not include all required infrastructure
support services. We were unable to examine GITGO costs in detail from the capital asset plans
and business cases submitted in 2007 and 2008 to OMB because IT infrastructure support costs
from GITGO were not delineated from overall IT infrastructure costs. The OCIO stated that they
have been tracking the costs for the GITGO initiative since its award. To improve the cost
validation process, the OCIO should improve the process for verifying this cost information to
better ensure the accuracy of future cost baselines necessary for monitoring infrastructure
support services.




                                                 6
Recommendations

We recommend that the General Services Administration, Chief Information Officer (GSA-CIO)
improve GSA Infrastructure Technology Global Operations (GITGO) security controls by:

   1. Enhancing IT security management of key certification and accreditation activities for the
      Unicenter Service Desk (USD) infrastructure to include:
         a. Completing the required certification and accreditation.
         b. Assigning an Information System Security Officer (ISSO).
         c. Developing an IT contingency plan in accordance with the IT Security Policy.

   2. Addressing the security vulnerabilities for the USD infrastructure to include:
         a. Mitigating the identified vulnerabilities.
         b. Enhancing hardening procedures for web applications, databases, and operating
            system platforms.
         c. Ensuring that IT security performance measures allow for adequate oversight of
            the IT Service Desk by incorporating key requirements into the contracting
            process.

   3. Improving the handling of IT security incidents by the IT Service Desk to include:
         a. Establishing comprehensive procedures for handling IT security incidents,
            including procedures for reporting and mitigating IT security incidents.
         b. Ensuring that IT Service Desk personnel have training in their specific
            responsibilities for handling IT security incidents.

   4. Analyzing remote support solution audit trails for unauthorized activity and other security
      events.

We recommend that the GSA-CIO improve GITGO service delivery and support by:

   5. Ensuring that a governance body reviews and approves the Service Level Agreements.

   6. Providing additional oversight for the adoption of the Information Technology
      Infrastructure Library (ITIL) to include developing milestones for the implementation of
      the selected ITIL processes.

   7. Enhancing procedures for IT Service Desk incidents to ensure that they are consistently
      handled.

We recommend that the GSA-CIO improve infrastructure support services cost monitoring by:

   8. Improving the cost validation process to verify project costs.




                                               7
Management Comments

The GSA-CIO concurred with all audit findings and recommendations. A copy of the CIO's
comments is provided in its entirety as Appendix B.

Internal Controls

The objective of this review was to assess whether risks with GSA's consolidation of IT support
services have been adequately mitigated by determining if: (l) the GSA Infrastructure
Technology Global Operations (GITGO) initiative for IT infrastructure support consolidation is
generating expected cost savings and other benefits; (2) GSA's consolidated IT Service Desk is
operating effectively, efficiently, and securely; and (3) GSA and the GITGO contractor are
developing and implementing Information Technology Infrastructure Library (ITIL) processes to
align IT support services to customer needs. If not, what changes are needed to ensure
successful implementation of the GITGO initiative? This report states the need to strengthen
specific controls for GITGO security, services and cost validation to improve operations and
customer satisfaction. This review did not address all of the expected benefits of the GITGO
initiative.




I wish to express niy appreciation to you and your staff for your cooperation during the audit. If
you have any questions, please contact me or Gwen McGowan, Deputy Assistant Inspector
General for Information Technology Audits, on 703-308-1223.




Donna p.fet~~
Audit Manager, Information Technology Audit Office (JA-T)




                                               8

                                 REVIEW OF THE
                            IMPLEMENTATION OF GSA’S
                      IT INFRASTRUCTURE SUPPORT SERVICES
                            CONSOLIDATION INITIATIVE
                         REPORT NUMBER A070113/O/T/F09007



                    APPENDIX A – BRIEFING SLIDES TO THE OCIO


Due to the sensitive nature of the detailed security information contained in this appendix, only
reports provided to the Chief Information Officer (CIO) and appropriate officials of the Office of
the Chief Information Officer contain a copy of the briefing slides used to present detailed
information to the CIO on March 30, 2009. Requests for copies of these slides should be
referred to Gwendolyn McGowan, Deputy Assistant Inspector General for Information
Technology Audits, or Donna Peterson-Jones, Audit Manager, on 703-308-1223.




                                               A-1
                  REVIEW OF THE
             IMPLEMENTATION OF GSA’S
       IT INFRASTRUCTURE SUPPORT SERVICES
             CONSOLIDATION INITIATIVE
          REPORT NUMBER A070113/O/T/F09007



APPENDIX B – GSA CIO’S RESPONSE TO THE DRAFT REPORT




                        B-1
                                  REVIEW OF THE
                             IMPLEMENTATION OF GSA’S
                       IT INFRASTRUCTURE SUPPORT SERVICES
                             CONSOLIDATION INITIATIVE
                          REPORT NUMBER A070113/O/T/F09007



                         APPENDIX C – REPORT DISTRIBUTION



With Appendix A                                                           Electronic Copies

Office of the Chief Information Officer (I)                                          3

Office of Enterprise Infrastructure (IO)                                             2


Without Appendix A

Assistant Inspector General for Auditing (JA)                                        1

Director, Audit Operations (JAO)                                                     1

Assistant Inspector General for Investigations (JI)                                  1

Internal Control and Audit Division (BEI)                                            1

Administration and Data Systems Staff (JAS)                                          1

Regional Inspector General for Auditing, National Capital Region (JA-W)              1




                                                C-1
